USDOJ: Exporter Pleads Guilty to Conspiring to Defraud the U.S. Export-import Bank of More Than $24 Million
Skip to main content | Skip to footer site map
Home
About Us
The Attorney General
Budget & Performance
Strategic Plans
Agencies
Business & Grants
Business Opportunities
Small & Disadvantaged Business
Grants
Resources
Forms
Publications
Case Highlights
Legislative Histories
Briefing Room
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
Careers
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
Contacts
Home   »  Briefing Room    »  Justice News
Printer Friendly
Department of Justice
Office of Public AffairsFOR IMMEDIATE RELEASEWednesday, June 23, 2010
Exporter Pleads Guilty to Conspiring to Defraud the U.S. Export-import Bank of More Than $24 Million
Guillermo O. Mondino, 47, of Miami, pleaded guilty today to leading a scheme to defraud the Export-Import Bank of the United States (Ex-Im Bank) of more than $24 million, announced Assistant Attorney General of the Criminal Division Lanny A. Breuer, Osvaldo L. Gratacos, Acting Inspector General of the Ex-Im Bank, Special Agent in Charge (SAC) Rebecca A. Sparkman of the Internal Revenue Service Office of Criminal Investigation (IRS-CID) Washington, and  Inspector in Charge Enrique Gutierrez of the U.S. Postal Inspection Service’s (USPIS) Miami Division.
Mondino entered his guilty plea in U.S. District Court in Washington before U.S. Magistrate Judge John M. Facciola. Mondino pleaded guilty to a two-count criminal information charging him with one count of conspiracy to defraud the United States and to commit mail fraud, and one count of money laundering.
According to plea documents, Mondino was the owner of Texon Inc., an exporting company located in Miami. From April 2003 to May 2009, Mondino and others conspired to defraud the Ex-Im Bank by submitting false and fraudulent information to the Ex-Im Bank to obtain approximately $24 million in loans and to misappropriate certain loan proceeds. Mondino prepared or instructed others to prepare false documents that would be submitted to lending banks and the Ex-Im Bank to facilitate the fraudulent loan transactions. Mondino and his co-conspirators agreed that a smaller amount of the loan proceeds than was represented to the Ex-Im Bank would actually be used to purchase U.S. goods for foreign buyers, as specified by Ex-Im Bank loan program requirements. In some cases, Mondino provided loan proceeds to borrowers in cash rather than using the proceeds to purchase goods to be shipped to the borrowers. He also commingled the loan proceeds with personal and other monies and transferred loan proceeds to bank accounts controlled by co-conspirators. Texon and its related entities retained approximately $2.5 million of the loan proceeds, and Mondino retained approximately $170,000 of the loan proceeds for his own benefit and use.
Also according to plea documents, on Sept. 8, 2008, Mondino transmitted by wire approximately $217,647 of criminally derived money from a Texon bank account in Miami to the bank account of a freight forwarder in Laredo, Texas.
Mondino is set to be sentenced on Sept. 13, 2010, by U.S. District Court Judge Ricardo M. Urbina, and faces a maximum sentence of 15 years in prison and a $500,000 fine. According to the plea agreement, he has agreed to pay more than $2.7 million in forfeiture and to pay restitution in full as of the date of sentencing of more than $12.5 million.
Ex-Im Bank is an independent, self-sustaining U.S. Government agency that assists in financing the export of U.S. goods and services to markets around the world through export credit insurance, loan guarantees and direct loans.
The case is being prosecuted by Trial Attorney Nicole H. Sprinzen of the Criminal Division's Fraud Section. The case is being investigated by the Ex-Im Bank, Office of Inspector General, the IRS-CID in Washington and the USPIS Miami Division.
10-737Criminal Division
Department of Justice Accomplishments
Open Government at the Department of Justice
Report a Crime
Get a Job
Locate a Prison, Inmate, or Sex Offender
Apply for a Grant
Submit a Complaint
Report Waste, Fraud, Abuse or Misconduct to the Inspector General
Find Sales of Seized Property
Find Help and Information for Crime Victims
Register, Apply for Permits, or Request Records
Identify Our Most Wanted Fugitives
Find a Form
Report and Identify Missing Persons
Contact Us
Site Map
Archive
Accessibility
FOIA
No FEAR Act
Information Quality
Privacy Policy
Legal Policies & Disclaimers
For Employees
Office of the Inspector General
Government Resources
Plain Writing
USA.gov
BusinessUSA
ABOUT
The Attorney General
Budget & Performance
Strategic Plans
AGENCIES
BUSINESS
Business Opportunities
Small & Disadvantaged Business
Grants
RESOURCES
Forms
Publications
Case Highlights
Legislative Histories
NEWS
Justice News
The Justice Blog
Public Schedule
Videos
Photo Gallery
CAREERS
Legal Careers
Interns, Recent Graduates, and Fellows
Diversity Policy
Veteran Recruitment
CONTACT